§)) af%.

ON
IN THE

zwrifjN center
p0R MAILING

db (p/s i/gQ

SUPREME COURT OF THE UNITED STATES

(mlMiM
l;-k flby^SM^L
ASHLEY DUNN - PETITIONER
vs.
JULIE JONES, SECRETARY,
FLORIDA DEPARTMENT OF CORRECTIONS RESPONDENTS

A.

FILED
JUN 3 0 2020
SUPrIEMEFCni

U. S. ELEVENTH CIRCUIT COURT OF APPEALS
PETITION FOR WRIT OF CERTIORARI

ASHLEY DUNN DC# U35991
FLORIDA WOMEN'S RECEPTION CENTER
3700 N.W. 111th p|ace
OCALA, FLORIDA 34482

RECEIVED
JUL 17 2020
OFFICE OF THE CLERK
SUPREME COURT, US.

QUESTION(S) PRESENTED
I. DID PETITIONER MAKE A SUBSTANTIAL SHOWINIG THAT HER 28 U.S.C. 2254
PETITION WAS TIMELY?
II. DID PETITIONER MAKE A SUBSTANTIAL SHOWING THAT HER 28 U.S.C 2254
PETITION WAS ENTITLED TO EQUITABLE TOLLING?

i.

LIST OF PARTIES
[X] All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list
of all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

RELATED CASES
Arthur v. Allen 452 F. 3d 1234

TABLE OF CONTENTS

OPINIONS BELOW

I

JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

,3

STATEMENT OF THE CASE

4

REASONS FOR GRANTING THE WRIT
CONCLUSION

5-9
10

INDEX TO APPENDICES

APPENDIX A - Eleventh Circuit Court of Appeals Order denying a Motion for a
Certificate of Appealability

APPENDIX B - United States District Court, Southern Districts Order denying
Federal Writ of Habeas Corpus

TABLE OF AUTHORITIES CITED

CASES

PAGE NUMBER

Arthur v. Allen 452 F. 3d 1234

6

Hallgren v. United States DOE, 331 F. 3d 588

8

Knight v. Schofield 292 F. 3d 709

6

Pliler v. Ford 242 U.S. 225

6

Rutland v. Williams

9

Spottsville v. Terry 476 F. 3d 1241

6

STATUTES AND RULES
Florida Rule Criminal Procedure 3.850

4, 7,8

IV.

IN THE
SUPREME COURT OF THE UNITED STATES
PETITON FOR WRIT OF CERTIOARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment
below.
OPINIONS BELOW
[X] For cases from federal courts:
The opinions of the United States court of appeals appears at Appendix A
to the petition and is
[ X ] reported at 6:18-cv-00759-RBD-GJK; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the United States district court appears at Appendix B to
the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
[ ] For case from state courts;
The opinion of the highest state court to review the merits appears at
Appendix
to the petition and is
[ ] reported at
.; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the________________
at Appendix___ to the petition and is

court appears

[ ] reported at
.; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1

JURISDICTION
[X] For case from federal courts:
The date on which the United States Court of Appeals decided my case
was April 1,2020.
[ X ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date:_________

and a copy of the order

denying rehearing appears at Appendix C.
[ ] An extension of time to file the petition for a writ of certiorari was
granted

to

and

including

________

(date)

on

_______________ (date) in Application No. A.
The jurisdiction of this Courtis invoked under 28 U.S.C. § 1254 (1).

[ ] For cases from state courts:
The

date

on

was

which

the

highest state

court

decided

my case

.. A copy of that decision appears at Appendix

[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following dafe:______________

and a copy of the

order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was
granted

to

and

including

_________

(date)

_______________ (date) in Application No.__A
The jurisdiction of this Court is invoked under 28 U.S.C. § 1257 (a).

2

on

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

UNITED STATES CONSTITUTION AMENDMENT FOURTEEN- SECTION 1: All
persons born or naturalized in the United States, and subject to the jurisdiction
thereof, are citizens of the United States and of the state wherein they reside. No
state shall make or enforce any law which shall abridge the privileges or
immunities of citizens of the United States; nor shall any State deprive any person
of life, liberty, or property, without due process of law; nor deny to any person
within its jurisdiction the equal protection of the laws.

UNITED STATES CONSTITUTION AMENDMENT FIVE; All Defendants' have a
constitutional right to access the courts. To be denied that right is a due process
violation where being incarcerated does not negate such rights and any
attempt to prevent a filing is denying a pro se access to the courts.

3

STATEMENT OF THE CASE
The Petitioner was sentenced to life without the possibility of parole for firstdegree murder with a firearm. The Florida Fifth District Court of Appeal affirmed
her sentences and convictions on August 19, 2014 and issued its mandate on
September 12, 2014.
On September 10, 2015 Petitioner filed a pro se Fla R. Crim. P. 3.850
motion. On September 7, 2016, Petitioner filed an amended Rule 3.850 motion.
The state court ultimately denied the motion on the merits on June 23, 2017. The
Fifth DCA affirmed and issued its mandate on April 30, 2018.
On May 11,2018, Petitioner filed a pro se 2254 petition. The state
responded that Petitioner's 2254 petition was untimely because the one-year
limitation period had expired on November 16, 2015, and her September 2015
motion had not tolled her time. The district court denied Petitioner’s 2254
petition as untimely, agreeing with the state.

4

REASONS FOR GRANTING THE PETITION
DID PETITIONER MAKE A SUBSTANTIAL SHOWING THAT HER 28 U.S.C. 2254
PETITION WAS TIMELY?
The Eleventh Circuit Court of Appeals decision in the Petitioner s case is
in direct conflict with it’s own decisions in Spottsville v. Terry, 476 F. 3d 1241;
Knight v. Schofield, 292 F. 3d 709; and Pliler v. Ford, 542 U.S. 225. In the
aforementioned cases in the circuit held "It was unreasonable for a pro se
litigant to second-guess or disregard an instruction in a written order of a
court.”
It is clear from the record that like in Spottsville, the Petitioner followed
the instructions given to her by the State Court to the letter. However, it
appears that in the instant case the Eleventh Circuit does not wish to
abide by their previous rulings.
Additionally, in the instant case the Petitioner was denied her
constitutional right of access to the courts. The prison authorities are
required to provide adequate law libraries and legally trained assistance
to prepare and file meaningful legal papers, Arthur v. Allen, 452 F. 3d
1234. At the time it was necessary for the Petitioner to start filing post
appeal collateral attacks on her sentence the prison law library was
unable to provide an experienced law clerk assist her. As such they were
unable to provide the petitioner with the capability needed to attack her

6

sentence.
When the Petitioner discovered this she attempted to get assistance
of any kind. Following that she filed the pro se Rule 3.850 motion that the
Eleventh Circuit claims did not qualify to toll her time. Contrary to the
Eleventh Circuit’s assertion the filing of the "inadequate” motion is proof
that the Petitioner was actively seeking assistance from the law library.
Although the Rule 3.850 motion may have been facially insufficient the
Petitioner did in fact alert the courts to her grounds and that there was a
violation of her constitutional rights. The Petitioner followed the guidance
provided by the prison law library whose primary focus is to protect the
Petitioner’s constitutional right to access the courts and the ability to
prepare a petition or complaint. This inadequacy has led'to the
Petitioner’s inability to pursue a desired actionable challenge to her
sentence and therefore demonstrates that the state failed in the law.
Based on the aforementioned, the Petitioner has made a
substantial showing that her Petition should be considered timely.

7

DID PETITIIONER MAKE A SUBSTANTIAL SHOWING THAT HER 28 U.S.C. 2254
PETITIION WAS ENTITLED TO EQUITABLE TOLLING?
The Petitioner in this case was well within her time frame to file her
2254 motion. The court docket shows that the Petitioner’s 3.850 motion
was filed on September 10, 2015 which was within the one year time
frame. The Respondent would have the court believe that because
Petitioner used an Abeyance to set aside a time frame that does not
entitle her to equitable tolling, however, it does. The Respondent says
a sufficient motion must be filed within the allotted time frames. One
was filed only with an abeyance attached. The courts have held that
equitable tolling is appropriate when the court has led the Petitioner to
believe that he had done everything required of him. Hallgren v.
United States DOE, 331 F. 3d 588 the court allowed the Petitioner to file
the abeyance, granted it and had her believe it was binding.
Although the lower court has no legal authority over the Federal Courts
have held that for equitable tolling, "Extraordinary circumstances" are
established if the Petitioner is affirmatively misled, either by the court or
the state, equitable tolling might be appropriate. The U.S. Supreme
Court has also acknowledged that procedural instruction run the risk of
being misleading. The case here involved a lay person who
reasonably believed she was correct in her efforts and endeavors. She
8

cannot interpret the law as an experienced attorney would. And, certain
leeway must be afforded by lay persons. There is not a blatant one year late
filing. The Petitioner filed what she believed was appropriate. And what lay
person would second-guess or disregard an instruction in a written order of a
court, Rutland v. Williams.
This is ‘‘The court of last resort." The Petitioner is a principle to a murder
and because she believed her life was in danger held her silence. How can the
law not protect the Petitioner’s interest of equitable tolling when she did not do
anything but try to have her case filed in time so she could seek Federal review if
she was not given relief in the state courts?
Petitioner’s Post/Abeyance was filed in proper time and this warrants
equitable tolling and for her case to be addressed on its merits. The Petitioner
prays she is granted relief in this regard.

9

CONCLUSION
Petitioner has made a substantial showing where her pro se motion should
be received as timely.

Respectfully submitted

£
Ashley Dunh/DC#/U35991

Date: June 30, 2020

10

